U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210




September 29, 2006

MEMORANDUM FOR:                   DAVID G. DYE
                                  Acting Assistant Secretary
                                   for Mine Safety and Health




FROM:                             ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

SUBJECT:                          MSHA Accountability Program
                                  Coal Mine Safety and Health
                                  Management Letter No. 05-06-007-06-001

This memorandum discusses the initial results of our performance audit of the
Mine Safety and Health Administration (MSHA), Coal Mine Safety and Health
(CMS&H) Accountability Program. Normally, a Management Letter is provided to be
read in conjunction with an accompanying audit report. However, with CMS&H
preparing to initiate Headquarters (HQ) Reviews of Districts in five districts during the
coming months, we are issuing this Management Letter as an interim reporting
mechanism to aid in those reviews. These results are based on our work to date and
were discussed at a meeting with CMS&H officials on September 7, 2006. Fieldwork is
continuing and we will report further in a separate report when our work is completed.

We have identified five potential issues. Improvement in these areas will increase the
validity and management oversight benefits of this process. As currently defined, the
Accountability Program does not require:

        1) a standard process for selecting mines to be reviewed during District Peer
           Reviews and HQ Reviews of Districts;
        2) that a review team member visit those mines selected for review during
           District Peer Reviews and HQ Reviews of Districts;
        3) that a review team member interview appropriate district and/or field office
           personnel during District Peer Reviews and HQ Reviews of Districts;
        4) a standard format for District Peer Review reports and corrective action
           plans; and
        5) a centralized system for HQ to record and track the deficiencies and
           corrective actions identified during District Peer Reviews and HQ Reviews
           of Districts.

Based on our ongoing assessment of MSHA’s safety and health programs and
responsibilities, we initiated an audit of MSHA’s Accountability Program within
CMS&H. The Accountability Program was established to evaluate the quality of MSHA
enforcement activities by conducting peer reviews of District activities, and to provide
reasonable assurance that policies and procedures are being complied with consistently
throughout Coal Mine Safety and Health, and Metal/Nonmetal Mine Safety and
Health. We focused on the Accountability Program within CMS&H in part, because of
the increase in coal mining accidents during FY 2006. As of July 30, 2006, there were 37
fatalities in the coal mining sector, as opposed to 28 and 22 coal mining fatalities
reported for 2004 and 2005, respectively.

The Accountability Program is implemented through the policy and guidelines
established by the Accountability Program Handbook (AH04-III-10). Prior to
March 2004, the Accountability Program was an administrative evaluation that
identified problems but had no clear mechanism to correct the root cause of those
problems. It also lacked follow-up measures. The program was revised as a result of
recommendations from MSHA’s Internal Review of the Jim Walters Resources
Company, Mine No. 5. The new program is intended to streamline the process so that
corrective actions, prompted by reviews, will be made quickly and efficiently. The new
program focuses on high risk areas, such as enforcement activities, instead of low risk
administrative issues.

The Accountability Program has two levels of review, HQ Reviews of Districts and
District Peer Reviews of field offices. The HQ Reviews of Districts are comprehensive
and include in-depth reviews of the enforcement activities for a selected operation(s).
HQ conducts a review of each District Office once every 2 years. These reviews ensure
that significant issues that were identified during previous District Peer Reviews
and/or HQ Reviews of Districts have been corrected. District Peer Reviews focus on
MSHA’s enforcement systems to identify deficiencies in the level and consistency of
enforcement, concentrating on those activities that most directly affect the safety and
health of miners. Each District conducts Peer Reviews of selected field offices annually.
Results of the District Peer Reviews are used by HQ personnel to ensure enforcement
consistency nationwide. District Peer Reviews are also used to identify systemic
weaknesses and trends, as well as potential best practices within MSHA’s inspection
programs.




                                        2 of 11
We have identified the following issues from our audit work to date that we believe will
enhance CMS&H officials’ ability to derive the most benefit from their District Peer
Reviews and HQ Reviews of Districts.

   1. The Accountability Program Handbook does not define or require a standard
      process for selecting a mine(s) to be reviewed during the District Peer Reviews
      and HQ Reviews of Districts. As a result, in both District Peer Reviews and HQ
      Reviews of Districts, only underground coal mines are considered for review,
      excluding surface mines and facilities from possible selection. This limits the
      value of the reviews by preventing procedural deficiencies or improprieties
      related to the oversight of surface mines and facilities from being detected and
      corrected. In addition, in District Peer Reviews, each District Manager uses
      varying criteria (e.g., size, accident rates, enforcement history, etc.) to select a
      mine(s) for review. This creates a risk that an individual could manipulate the
      selection to reduce the effort required to complete the review or to avoid
      detection of deficiencies or improprieties. While there may be acceptable reasons
      to weight the probability of selection based on various factors, the validity of the
      accountability process would be improved by assuring that all entities
      (underground, surface, and facility) have a possibility of selection and that the
      selection is not within the control of any individual (i.e., random).

   Recommendation: MSHA should develop and require a standard process for the
   selection of a mine(s) to be reviewed during both District Peer Reviews and HQ
   Reviews of Districts. The process should assure that (a) any entity could be
   selected and (b) the selection is not within the control of any individual. In
   addition to the mine(s) selected through this process, MSHA could, if desired,
   select an additional mine(s) for review based on criteria of its choosing (e.g.,
   fatalities, accidents, enforcement history, size, etc.).

   2. The Accountability Program Handbook does not require review team members
      to visit the mine(s) selected for review. District Peer Reviews and HQ Reviews of
      Districts should not be based solely on an examination of various records. A
      review solely based on records increases the risk that errors (unintentional) or
      misrepresentations (intentional) in the documentation would not be detected. A
      physical tour of selected portions of the mine would provide a basis of
      comparison against events and conditions depicted in the mine’s plans and
      inspection records.

   Recommendation: MSHA should require that one or more review team members
   observe selected portions of the mine(s) chosen for review. The scope of these
   observations should be sufficient to form an overall perspective of the mine’s
   condition and operation in comparison to that reflected by the related mine plans
   and records (e.g., inspector notes, citations, etc.).



                                        3 of 11
3. The Accountability Program Handbook does not require review team members
   to conduct any interviews in completing District Peer Reviews and HQ Reviews
   of Districts. Omitting interviews of individuals involved in or knowledgeable of
   district or field office activities (e.g., MSHA personnel, mine operators, union
   officials) limits the scope of information used to assess those offices’ operations.
   This increases the risk that operational deficiencies will not be detected.
   Interviews of appropriate individuals during District Peer Reviews and HQ
   Reviews of Districts would provide an opportunity to corroborate and expand on
   information about operational issues identified through other review sources
   (i.e., document review and mine visits).

Recommendation: MSHA should require that review team members interview
appropriate individuals during District Peer Reviews and HQ Reviews of
Districts. The scope of these interviews should address overall office operations
as well as the information contained in any specific records (e.g., inspector notes,
citations, etc.) reviewed.

4. The Accountability Program Handbook does not require a standard format for
   District Peer Review reports and corrective action plans. As a result, the
   Summary Accountability Reports that District Managers submitted to CMS&H
   officials during the period January 1, 2005 – June 30, 2006, presented peer review
   information in a variety of formats and levels of detail. This makes it more
   difficult for CMS&H HQ officials to determine that all appropriate (a) review
   work was performed, (b) results were reported, and (c) corrective actions were
   identified. It also makes it more difficult to analyze comparable information
   across districts to identify trends and systemic issues. A standard format for
   District Peer Review reports would facilitate the ability of CMS&H officials to
   carry out their oversight review and analysis.

Recommendation: MSHA should require the use of a standard report format, in
both presentation and content, for District Peer Review Reports and corrective
action plans. This would help MSHA to assess the consistent application of
policies and procedures nationwide as well as facilitate the identification of
systemic weaknesses and the implementation of potential best practices.

5. The Accountability Program Handbook does not require that CMS&H maintain
   a tracking system of deficiencies and corrective actions. Without an effective
   method to track the results, there is an increased risk that corrective actions will
   not be timely completed and that systemic deficiencies will not be identified. A
   tracking system would facilitate CMS&H officials’ ability to assure the timely
   completion of planned corrective actions and enhance their ability to review and
   analyze systemic weaknesses and trends.




                                     4 of 11
  Recommendation: MSHA should develop a system to record and track the results
  of District Peer Reviews and HQ Reviews of Districts, e.g., identified deficiencies,
  planned corrective actions, potential best practices, etc. This tracking system will
  facilitate review and analysis of systemic weaknesses and trends, help to ensure
  that corrective actions are completed in a timely manner, and that potential best
  practices are shared nationwide.
Agency Response

In response to the draft Management Letter, MSHA stated that CMS&H management
has seriously considered our suggestions and concurs that the enhancements will not
only create a more uniform and standardized approach to Headquarters and District
Peer review processes, but also assist CMS&H in strengthening this very important
oversight program. MSHA specifically agreed that the Accountability Handbook does
not require a number of processes related to the selection of mines, mine visits,
interviews, standardized format for District Peer Review reports and corrective actions,
and a centralized tracking system for deficiencies and corrective actions identified
during HQ and District Peer Reviews. MSHA’s response outlines corrective actions
that CMS&H will take to address each recommendation. The Acting Assistant
Secretary’s response is included in its entirety as an attachment.

OIG Conclusion

Based on MSHA’s response, we consider recommendations 1, 3, 4 and 5 resolved.
These recommendations will be closed upon receipt and review of the results of
MSHA’s corrective actions. With regard to recommendation 2, MSHA stated that it
would include visits to a percentage of mine(s) selected for District Peer Reviews. We
recognize that visiting all mines selected for District Peer Reviews presents a resource
issue; therefore, we will take into consideration MSHA’s proposed action as we
continue our ongoing audit of the Accountability Program.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the recommendations.
If you have any questions regarding this Management Letter, please contact Charles
Allberry, Regional Inspector General for Audit in Chicago, at 312-353-2416.

Attachment

cc:   John Langton
      Acting Administrator for CMS&H

      Melinda Pon
      Special Assistant to the Administrator for CMS&H

      Kenneth Bullock

                                        5 of 11
Director, Office of Program Policy Evaluation

Brent Carpenter
MSHA Audit Liaison




                                6 of 11
7 of 11
8 of 11
9 of 11
10 of 11
11 of 11
